Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





REVIEW OF SERVICES PROVIDED

    BY INHALATION DRUG 

         SUPPLIERS





                    Daniel R. Levinson

                     Inspector General 


                     September 2005

                     OEI-01-05-00090

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                        S U M M A R Y                                              



                  OBJECTIVE
                  To determine the nature and extent of dispensing services that
                  Medicare beneficiaries receive from inhalation drug suppliers.


                  BACKGROUND
                  In 2003, about 1 million beneficiaries received Medicare-covered
                  inhalation drugs. Medicare paid suppliers about $1.4 billion for the
                  drugs and an additional $35.5 million in dispensing fees. In 2005,
                  reductions in payments for inhalation drugs mandated by the Medicare
                  Prescription Drug, Improvement, and Modernization Act of 2003 took
                  effect. This resulted in up to a 90 percent drop in payment for some of
                  these drugs from their 2003 level. To cover the cost of services
                  necessary to dispense inhalation drugs, the Centers for Medicare &
                  Medicaid Services (CMS) raised the dispensing fee from $5 to $57 for a
                  30-day drug supply and offered $80 for a 90-day supply. We estimate
                  that payments for dispensing fees will total about $400 million in 2005.

                  Yet, it is unclear what services suppliers provide and, therefore, how
                  much Medicare should pay in its dispensing fee. While the Medicare
                  Program Integrity Manual requires suppliers to contact beneficiaries
                  before providing drug refills, neither Congress nor CMS has stated what
                  additional services the dispensing fee covers. In its 2004 final rule
                  setting the interim fee, CMS stated the need to learn more about the
                  services inhalation drug suppliers provide to Medicare beneficiaries.

                  We drew a stratified random sample of 480 beneficiaries who had
                  Medicare claims for inhalation drugs in 2003. We mailed surveys to the
                  203 suppliers who provided these beneficiaries with their drugs and
                  requested that the suppliers report and provide supporting
                  documentation for all services they provided to the beneficiaries during
                  2003. We received responses for 96 percent of the beneficiaries in our
                  sample, yielding data on 11,777 services. We excluded undocumented
                  services and others outside of the scope of this inspection, such as drug
                  deliveries and billing activities. Our analysis considered 4,130 services.


                  FINDINGS
                  The most common service beneficiaries received in 2003 was
                  contact for drug refills. Sixty percent of beneficiaries received this
                  service at least once in 2003. Thirty-one percent of beneficiaries who
                  should have been contacted for a refill were not contacted by their

OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S       i
E X E C U T I V E                   S U     M M A R Y


                   suppliers, contrary to the Medicare Program Integrity Manual.
                   Suppliers contacted physicians’ offices for about half of beneficiaries to
                   get physicians’ orders, consult on medication changes, and for other
                   reasons. Less than a third of beneficiaries had their medication
                   compliance reviewed by their suppliers. Few beneficiaries received
                   more intensive services such as education, response to an inquiry, care
                   plan revision, or respiratory assessment. Among beneficiaries who had
                   2 months or more of drug claims, 16 percent received no services at all.
                   Other services were less common. Contact for drug refills accounted
                   for 56 percent of services. The next most common services, medication
                   compliance reviews and contacting physicians’ offices, composed
                   15 percent and 12 percent of services, respectively.
                   The most common way beneficiaries received services was by
                   telephone. Beneficiaries received 73 percent of services by telephone.
                   Fourteen percent of services involved no supplier contact with
                   beneficiaries. Home visits were rare; only about 1 in 10 beneficiaries
                   received a home visit any time during 2003.
                   Beneficiaries were three times more likely to receive a service
                   beyond a refill contact if their supplier also provided their
                   respiratory equipment. When beneficiaries’ inhalation drug suppliers
                   also provided them with Medicare-covered respiratory equipment, those
                   beneficiaries were far more likely to receive services beyond a refill
                   contact. Those beneficiaries’ average monthly service level was higher
                   than that of beneficiaries who only received inhalation drugs from their
                   suppliers.
                   Service levels dropped off after the first month suppliers billed for
                   drugs. On average, services beneficiaries received fell from
                   1.96 services in the first month suppliers billed for drugs to between
                   1.01 and 1.18 services in the second through eighth months of service.


                   CONCLUSION
                   CMS set the interim dispensing fee for inhalation drugs based, in part,
                   on an assumption that beneficiaries receive numerous, important
                   services from their drug suppliers. This inspection shows that
                   beneficiaries, on average, receive little service from their inhalation
                   drug suppliers beyond contacting them to ask if they need a drug refill.
                   We provide this information to CMS to assist it in setting a new
                   dispensing fee for inhalation drugs.


 OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   ii
E X E C U T I V E                   S U     M M A R Y 




                   AGENCY COMMENTS
                   In its comments on the draft report, CMS expressed appreciation for the
                   Office of Inspector General’s efforts to provide information on services
                   that inhalation drug suppliers provide to Medicare beneficiaries. CMS
                   stated that it will carefully consider this information as it develops a
                   new dispensing fee policy.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   We appreciate CMS’s comments and consideration of the information in
                   the report.




 OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   iii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY....................................
i



         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 5

                   Most services were drug refill contacts . . . . . . . . . . . . . . . . . . . . . . 5 


                   Other services were far less common . . . . . . . . . . . . . . . . . . . . . . . . 6 


                   Most services were provided by telephone . . . . . . . . . . . . . . . . . . . . 6 


                   Beneficiaries receiving equipment more likely to get services . . . . 7 


                   Service levels dropped off after the first month . . . . . . . . . . . . . . . . 7 



         CONCLUSION ............................................. 9




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                   B: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                   C: Nonrespondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 

I N T R O D        U C T          I O N
Δ    I N T R O D U C T I O N                                         



                    OBJECTIVE
                    To determine the nature and extent of dispensing services that
                    Medicare beneficiaries receive from inhalation drug suppliers.


                    BACKGROUND
                    Medicare Coverage of Inhalation Drugs
                    About 1 million beneficiaries received Medicare-covered inhalation
                    drugs in 2003. These drugs, such as albuterol sulfate and ipratropium
                    bromide, help beneficiaries to ease shortness of breath caused by
                    emphysema, chronic bronchitis, and other ailments collectively known
                    as chronic obstructive pulmonary disease. Because this is an incurable,
                    progressive disease, long term use of inhalation drugs is often required.1
                    Until full implementation of Medicare Part D in 2006 as part of the
                    Medicare Prescription Drug, Improvement, and Modernization Act of
                    2003 (MMA), Medicare benefits typically do not cover outpatient
                    prescription drugs. However, Medicare does pay for drugs that are
                    necessary for the effective use of covered durable medical equipment
                    (DME). In this case, Medicare covers inhalation drugs because it covers
                    a type of DME called a nebulizer, which beneficiaries use in home-care
                    settings to administer the drugs. Nebulizers aerosolize medications so
                    that patients can inhale them into their lungs.

                    Under the DME benefit, Medicare coverage of nebulizers includes the
                    cost of renting/purchasing the equipment, delivering it to beneficiaries,
                    and educating beneficiaries in its proper use and maintenance.
                    Medicare regulations require that DME suppliers document proof of
                    delivery and that they or another qualified party provide beneficiaries
                    with the necessary information and instructions on how to use
                    Medicare-covered items safely and effectively.2 Medicare pays suppliers
                    separately for the inhalation drugs used with the nebulizer and a
                    separate drug dispensing fee.
                    Medicare Reimbursement for Inhalation Drugs
                    In 2003, Medicare payments to suppliers totaled $1.4 billion for
                    inhalation drugs and, under a fee structure of $5 per month per drug
                    dispensed, $35.5 million in dispensing fees.

                    About one-quarter of the suppliers that billed Medicare for inhalation
                    drugs in 2003 also billed the program for nebulizers, oxygen equipment,
                    and respiratory supplies. These suppliers received several streams of

 OEI-01-05-00090    REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   1
I N T R O D        U C T          I O N


                    Medicare payment for each beneficiary they serviced, enabling them to
                    achieve economies of scale in their service delivery, for example, by
                    attending to both equipment and drug issues during one service call.
                    Reduction in Medicare Reimbursement for Inhalation Drugs
                    In 2005, MMA-mandated reductions in reimbursement for inhalation
                    drugs took full effect, resulting in cuts of up to 90 percent for some of
                    these drugs from their 2003 payment level.3 This change followed
                    numerous studies by the Office of Inspector General (OIG) and the
                    Government Accountability Office (GAO) that found Medicare’s
                    payment for inhalation drugs was up to five times suppliers’ acquisition
                    cost, far exceeding the payment rate of Medicaid and others.4 In 2002
                    alone, Medicare overpaid suppliers nearly $650 million for albuterol
                    sulfate and ipratropium bromide, the two most commonly used
                    inhalation drugs. Of this amount, about $130 million, or 20 percent,
                    was paid by Medicare beneficiaries through copayments.5
                    Suppliers contend that the difference between their acquisition costs
                    and Medicare payment helps them provide important services to
                    beneficiaries, in addition to providing their inhalation drugs. A 2004
                    report written for the American Association for Homecare (AAH) stated
                    that suppliers commit significant resources to compliance monitoring,
                    beneficiary/caregiver education, care plan management, and other
                    services. It also stated that suppliers spend 23 minutes on average per
                    patient, per month conducting home visits. The report estimated that
                    these services compose over 60 percent of the monthly cost of providing
                    inhalation drugs.6
                    Interim Dispensing Fee
                    Because it was concerned that lower, MMA-mandated drug payments
                    would not cover suppliers’ cost of furnishing inhalation drugs, CMS
                    raised the dispensing fee on an interim basis for 2005.7 Under the
                    interim fee, payment for providing a 30-day drug supply increased from
                    $5 to $57. CMS also offered to pay suppliers $80 for providing a 90-day
                    drug supply.8 Under these two fee structures, we estimate dispensing
                    fees for inhalation drugs will total about $400 million in 2005.9 To
                    calculate the interim dispensing fee, CMS relied largely on the services
                    and costs described in the AAH report, but excluded sales and
                    marketing expenses, bad debt, and an explicit profit margin.10, 11
                    Uncertainty Over Services Provided
                    Yet, it is unclear what services suppliers provide when furnishing
                    inhalation drugs, and, therefore, how much Medicare should pay in its

 OEI-01-05-00090    REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   2
I N T R O D        U C T          I O N


                    dispensing fee. An October 2004 GAO report found that suppliers’
                    services varied widely and that their dispensing costs ranged from
                    $7 to $204 per month. GAO also found that some costs reported by
                    suppliers might not be necessary to dispense drugs, such as overnight
                    shipping costs.12
                    CMS established the dispensing fee in January 1994.13 Since then,
                    neither Congress nor CMS has provided guidance in either statute,
                    regulation, or program memorandum concerning what services the
                    dispensing fee should cover. However, the Medicare Program Integrity
                    Manual does require that suppliers contact beneficiaries prior to
                    dispensing refills.14
                    New Dispensing Fee for 2006
                    In August 2005, CMS published a proposed rule stating its intention to
                    set a new dispensing fee for 2006. Pursuant to the proposed rule, the
                    fee should be “. . . adequate to cover the costs of those services that
                    appropriately fall within the scope of a dispensing fee . . . .” To that end,
                    CMS requested “. . . data and information on the various services
                    inhalation drug suppliers are currently providing to Medicare
                    beneficiaries . . . .”15


                    METHODOLOGY
                    We based this inspection on a review of services provided by inhalation
                    drug suppliers to a stratified random sample of Medicare beneficiaries.
                    Scope
                    This inspection is national in scope and focuses on customer service
                    activities that inhalation drug suppliers provide to Medicare
                    beneficiaries. This inquiry does not estimate the cost of providing these
                    services, nor does it imply an appropriate level or composition of
                    services. This inquiry does not address pharmacy, delivery, billing, and
                    other activities that suppliers perform to provide drugs and that also
                    drive their cost of doing business. We excluded these activities because
                    they must take place for suppliers to provide drugs and get reimbursed.
                    We also excluded services related to equipment because Medicare pays
                    suppliers separately for equipment and equipment-related services.
                    Our analysis of services considered only those services that suppliers
                    could support with documentation.
                    Sample Selection
                    We based our findings on a review of services provided by inhalation
                    drug suppliers to a stratified random sample of 480 Medicare

 OEI-01-05-00090    REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   3
I N T R O D        U C T          I O N


                    beneficiaries who had paid claims for inhalation drugs in Medicare’s
                    National Claims History File in calendar year 2003. Our sample
                    population comprises 966,966 beneficiaries. We stratified our sample to
                    enable us to test for differences related to longevity on the drugs and
                    oxygen use. This approach resulted in 4 strata of 120 beneficiaries
                    each. Our analysis showed that oxygen use does not affect service
                    levels, and we do not report on it in our findings. See Table 1 in
                    Appendix A for the strata definitions and sample design.
                    Data Collection
                    To determine the services provided to beneficiaries in our sample, we
                    surveyed the suppliers that provided them with inhalation drugs during
                    2003. We requested that suppliers report all services they provided to
                    the beneficiaries during 2003 and provide documentation supporting
                    each service. We received responses from 186 of the 203 suppliers we
                    surveyed. These suppliers provided data on 461 of the 480 beneficiaries
                    in our sample, yielding a 96 percent response rate.
                    Data Analysis
                    We captured data on a total of 11,777 services, including 500 services
                    that suppliers failed to report but were evident in supporting
                    documentation. Of these, we excluded 5,097 services related to drug
                    delivery, billing, and pharmacy because they were outside of the scope
                    of our inquiry and 441 equipment-related services. We eliminated
                    1,505 services that suppliers could not support with documentation.16
                    We also excluded 181 unsuccessful service attempts because no service
                    was provided, 344 duplicate reports of services, 68 services related to
                    drugs not covered by Medicare, and 11 services for other reasons. After
                    these exclusions, the total number of services in our analysis was 4,130.
                    See Appendix A for a full discussion of our methodology.

                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency.




 OEI-01-05-00090    REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   4
F    I N D I N G       S
Δ       F I N D I N G S



       The most common service beneficiaries                Sixty percent of beneficiaries
    received in 2003 was contact for drug refills           received this service at least once in
                                                            2003. This service involved
                      salespeople, respiratory therapists, or other supplier staff contacting
                      beneficiaries to ask if they need a new monthly supply of medication
                      (beneficiaries sometimes initiate this contact as well). Occasionally,
                      beneficiaries would request refills by sending preprinted postcards to
                      their suppliers.

                      Among beneficiaries with 2 months or more of drug claims in 2003,
                      31 percent had no refill contacts during the entire year. Pursuant to the
                      Medicare Program Integrity Manual, these beneficiaries should have
                      been contacted at least once by their suppliers that year.
                      Suppliers contacted physicians’ offices for about half of beneficiaries
                      Fifty-two percent of beneficiaries received this service in 2003.
                      Suppliers contacted physicians’ offices to get physicians’ orders, to
                      consult on medication changes, and for other reasons. The Medicare
                      Program Integrity Manual requires that suppliers get a physician’s
                      order before billing for inhalation drugs.17 Fifty percent of these
                      contacts occurred in the first month that suppliers billed for drugs; the
                      contacts dropped off significantly in subsequent months.18
                      Less than a third of beneficiaries had their medication compliance reviewed
                      by their suppliers
                      Twenty-seven percent of beneficiaries received a compliance review
                      from their supplier at least once in 2003. Supplier staff conducted
                      compliance reviews to determine whether beneficiaries were using their
                      medication in accordance with the instructions of their physicians.
                      Compliance reviews ranged from those using a telephone call script
                      with questions on the beneficiary’s drug use, side effects, and outcomes,
                      to reviews that consisted of a note made in a refill call log stating how
                      often the beneficiary used the drugs (e.g., “using as needed”).
                      Eighty-nine percent of all compliance reviews occurred while supplier
                      staff were calling beneficiaries to ask if they needed a drug refill.
                      Few beneficiaries received more intensive services such as education,
                      response to an inquiry, care plan revision, or respiratory assessment
                      Sixteen percent of beneficiaries received an educational service from
                      their supplier at least once in 2003. Educational services included
                      printed fact sheets on the prescribed drugs, printed information about
                      the supplier, and training on how to use the drugs. Eight percent of

    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   5
F   I N D I N G        S


                      beneficiaries made an inquiry to their suppliers during the year,
                      typically by telephone. Inquiries included requests for emergency refills
                      and reporting problems with medications. Five percent of beneficiaries
                      received care plan revisions and less than 3 percent received respiratory
                      assessments. Care plan revisions involved changing beneficiaries’
                      medication or frequency of use. To conduct respiratory assessments,
                      supplier staff visited beneficiaries in their homes to check clinical
                      indicators of breathing functions. See Table 6 in Appendix B for the
                      percentage of beneficiaries who received different services.
                      Sixteen percent of beneficiaries received no services at all
                      Because some beneficiaries were beginning or ending their treatment
                      regimens outside of 2003, we do not expect that all of them would have
                      received a service during the year. However, among beneficiaries with
                      2 months or more of drug claims in 2003, 16 percent received no services
                      at all during the entire year.


            Other services were far less common              Of all services provided in 2003,
                                                             56 percent were refill contacts.
                      With 15 percent of services, medication compliance reviews were the
                      second most common service beneficiaries received. Contacting
                      physicians’ offices composed 12 percent of services. The next most
                      common service was beneficiary/caregiver education at 7 percent of
                      services, followed by clinical intake, which composed 4 percent of
                      services. Two percent of services were responding to beneficiary
                      inquiries. Other services, including respiratory assessments and care
                      plan revisions, together composed about 5 percent of services. See
                      Table 7 in Appendix B for a list and frequency count of services.


The most common way beneficiaries received 
               Beneficiaries received 73 percent of 

                services was by telephone                  services by telephone in 2003.
                                                           Contacting beneficiaries for a refill
                      and medication compliance reviews, the two most frequent services,
                      were performed almost entirely by telephone. Fourteen percent of
                      services involved contacting physicians’ offices and other activities that
                      required no beneficiary interaction. Service delivery methods also
                      included U.S. mail, third-party delivery services such as FedEx, and
                      in-person at retail locations. See Table 8 in Appendix B for a list and
                      frequency count of service delivery methods.


    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   6
 F   I N D I N G        S


                       Home visits were rare
                       Only about 1 in 10 beneficiaries received a home visit from their
                       suppliers at least once in 2003. These visits involved supplier delivery
                       people or other staff visiting beneficiaries in their homes to perform
                       services such as education and respiratory assessments. About
                       2 percent of all services were provided by home visits. See Table 9 in
                       Appendix B for the percentage of beneficiaries who received different
                       service delivery methods.


  Beneficiaries were three times more likely to               When beneficaries’ inhalation drug
receive a service beyond a refill contact if their            suppliers also provided them with
        supplier also provided their respiratory              their nebulizers, oxygen equipment,
                                     equipment                or other Medicare-covered
                                                              respiratory equipment, those
                       beneficiaries were far more likely to receive services beyond a refill
                       contact.19 Also, those beneficiaries’ average service level was higher
                       than that of beneficiaries who only received inhalation drugs from their
                       suppliers.20 Seventy-four percent of beneficiaries receiving inhalation
                       drugs also got Medicare-covered respiratory equipment or supplies from
                       their drug suppliers.


Service levels dropped off after the first month               Services fell from 1.96 services in
                     suppliers billed for drugs                the first month that suppliers billed
                                                               for drugs to between 1.01 and
                       1.18 services in the second through eighth months of service.21 (See
                       Chart 1 on page 8.) On average, beneficiaries received 1.2 services per
                       month throughout 2003.22 Excluding contacts for drug refills, this
                       service level fell to 0.71 services per month.




     OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   7
 F    I N D I N G       S                            





 Chart 1: Average                                  2.5
         Number of
Services per Month
                            Average All Services
                                                    2
        Received by
          Medicare                                 1.5
Beneficiaries from
     Inhalation Drug
                                                    1
  Suppliers During
 2003, by Month of
                                                   0.5
            Service

                                                    0
                                                              1        2               3               4               5         6   7   8
                                                                                                    Claim Month

                       Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.




     OEI-01-05-00090   REVIEW                      OF    SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S               8
Δ   C O N C L U S I O N                              





                  For 2005, CMS set a revised, interim dispensing fee for inhalation drugs
                  in response to significant cuts in drug payments mandated by the MMA.
                  The fee is to remain in place while CMS gathers more information on
                  the services that drug suppliers provide to Medicare beneficiaries. CMS
                  plans to set a new dispensing fee for 2006.

                  To set the interim fee, CMS relied primarily on a report commissioned
                  by AAH, a trade group representing the respiratory therapy industry.
                  The report stated that, in addition to providing drugs, inhalation drug
                  suppliers provide numerous, important services to Medicare
                  beneficiaries. According to the report, services such as home visits,
                  compliance monitoring, beneficiary/caregiver education, and care plan
                  management compose 60 percent or more of the monthly cost of
                  servicing each beneficiary.

                  CMS set the interim dispensing fee for inhalation drugs based, in part,
                  on an assumption that beneficiaries receive these services from their
                  drug suppliers. However, this inspection shows that beneficiaries, on
                  average, receive little service from their inhalation drug suppliers
                  beyond contacting them to ask if they need a refill.

                  We provide this information to CMS to assist it in setting a new
                  dispensing fee for inhalation drugs.


                  AGENCY COMMENTS
                  In its comments on the draft report, CMS expressed appreciation for the
                  OIG’s efforts to provide information on services that inhalation drug
                  suppliers provide to Medicare beneficiaries. CMS stated that it will
                  carefully consider this information as it develops a new dispensing fee
                  policy. For CMS’s complete comments, see page 26 of this report.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  We appreciate CMS’s comments and consideration of the information in
                  the report.




OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   9
Δ   E N D N O T E S                       





                    1Global Strategy for Diagnosis, Management, and Prevention of
                  Chronic Obstructive Pulmonary Disease, Executive Summary based on
                  April 1998 National Heart, Lung, and Blood Institute/World Health
                  Organization workshop. Global Initiative for Chronic Obstructive
                  Pulmonary Disease, updated 2004.

                    2   42 C.F.R. § 424.57(c)(12) (2003).

                    3Medicare now pays for inhalation drugs at 106 percent of the average
                  sales price. The average sales price reflects the actual average price at
                  which manufacturers sell inhalation drugs.

                    4   See:

                    Department of Health and Human Services, Office of Inspector
                  General, Update: Excessive Medicare Reimbursement for Albuterol,
                  OEI-03-03-00510, January 2004.

                     Department of Health and Human Services, Office of Inspector
                  General, Update: Excessive Medicare Reimbursement for Ipratropium
                  Bromide, OEI-03-03-00520, January 2004.

                    Government Accountability Office, Payments for Covered Outpatient
                  Drugs Exceed Providers’ Cost, GAO-01-1118, September 2001.

                    Department of Health and Human Services, Office of Inspector
                    5

                  General, Update: Excessive Medicare Reimbursement for Albuterol,
                  OEI-03-03-00510, January 2004.

                     Department of Health and Human Services, Office of Inspector
                  General, Update: Excessive Medicare Reimbursement for Ipratropium
                  Bromide, OEI-03-03-00520, January 2004.

                    6Muse & Associates, The Costs of Delivering Inhalation Drug Services
                  to Medicare Beneficiaries, August 2004.

                    7   69 Fed. Reg. 47,549 (August 5, 2004).




OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   10
                    8   69 Fed. Reg. 66,338 (November 15, 2004).

                    9 We base this estimate on about 7,100,00 dispensing fees paid in 2003
                  at a blend of the 2005 interim amounts of $57 and $80.

                    10   70 Fed. Reg. 45,848 (August 8, 2005).

                    11   69 Fed. Reg. 66,338 (November 15, 2004).

                    12Government Accountability Office, Appropriate Dispensing Fee
                  Needed for Suppliers of Inhalation Therapy Drugs, GAO-05-72,
                  October 2004.

                    13Authority for a dispensing fee for inhalation drugs is based on
                  § 1842(o)(2) of the Social Security Act which reads, “If payment for a drug
                  or biological is made to a licensed pharmacy approved to dispense drugs
                  or biologics under this part, the Secretary may pay a dispensing fee (less
                  the applicable deductible and coinsurance amounts) to the pharmacy.”

                    14   Medicare Program Integrity Manual Rev. 71, 04-09-04 § 4.26.1.

                    15   70 Fed. Reg. 45,848 (August 8, 2005).

                    16Of these, about half were medication compliance reviews and about a
                  third were contacts for drug refills.

                    17   Medicare Program Integrity Manual Rev. 100, 01-21-05 § 5.1.1.

                     The average decrease in physician contacts from month 1 to
                    18

                  months 2 through 8 was 0.61, with p<.01.

                    19 We performed logistic regression to determine the relationship
                  between beneficiaries receiving respiratory equipment from their
                  inhalation drug suppliers and receiving a service beyond a refill contact.
                  The regression determined that, compared to beneficiaries receiving only
                  drugs from their suppliers, beneficiaries receiving equipment were
                  3.14 times more likely to receive a service beyond a refill contact. This
                  effect is statistically significant at p<.05; the upper and lower
                  95 percent confidence intervals are 1.73 and 5.70, respectively.




OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   11
                    20 Beneficiaries who also received Medicare-covered respiratory
                  equipment and supplies received 1.31 services per month on average.
                  Beneficiaries who only received inhalation drugs from their supplier
                  received 0.83 services per month, on average. A statistical test of
                  differences shows that the difference between these means is statistically
                  significant with t=3.25 and p<.01.

                    21The average decrease in services from month 1 to months 2 through
                  8 was 0.93, with p<.01.

                    22Including undocumented services reported by suppliers, this service
                  level is 1.59 services per month.




OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   12
A    P   P E N D      I X           ~     A      





                      METHODOLOGY
                      We based this inspection on a review of services provided by inhalation
                      drug suppliers to a stratified random sample of Medicare beneficiaries.
                      Scope
                      This inspection is national in scope and focuses on customer service
                      activities that inhalation drug suppliers provide to Medicare
                      beneficiaries. This inquiry does not estimate the cost of providing these
                      services, nor does it imply an appropriate level or composition of
                      services. This inquiry does not address pharmacy, delivery, billing, and
                      other activities that suppliers perform to provide drugs and that also
                      drive their cost of doing business. We excluded these activities because
                      they must take place for suppliers to provide drugs and get reimbursed.
                      We also excluded services related to equipment because Medicare pays
                      suppliers separately for equipment and equipment-related services.
                      Our analysis considered only those services that suppliers could support
                      with documentation from patient records and other sources. See
                      Table 6 in Appendix B for the list of services we included in our
                      analysis.
                      Sample Selection
                      We based our findings on a review of services provided by inhalation
                      drug suppliers to a stratified random sample of 480 Medicare
                      beneficiaries who had Medicare-paid claims for inhalation drugs in
                      calendar year 2003. We chose 2003 as our reference year because it was
                      the latest year with complete and available Medicare claims data when
                      we drew our sample. We excluded Medicare beneficiaries from Puerto
                      Rico and U.S. territories. We used CMS’s year 2003 100 percent
                      National Claims History file to identify beneficiaries who had paid
                      Medicare claims for 1 of 32 inhalation drugs covered for use in a
                      nebulizer. Our sample population comprises 966,966 beneficiaries.

                      We stratified our sample to determine if beneficiaries beginning
                      inhalation drug use and those who use oxygen receive different amounts
                      or types of services.
                      o Stratum 1: Beneficiaries who began using inhalation drugs in 2003
                        and had 8 or more months of drug claims during the year from the
                        same supplier and were not using oxygen.
                      o Stratum 2: All other beneficiaries who had a claim for inhalation
                        drugs in 2003 and were not using oxygen.


    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   13
A    P   P E N D      I X            ~     A


                      o Stratum 3: Beneficiaries who began using inhalation drugs in 2003
                         and had 8 or more months of drug claims during the year from the
                         same supplier and were using oxygen.
                      o Stratum 4: All other beneficiaries who had a claim for inhalation
                         drugs in 2003 and were using oxygen.

                      Our analysis showed that oxygen use does not affect service levels, and
                      we do not report on it in our findings.

                      To identify which stratum members of our sample population belonged
                      to, we used CMS’s Enrollment Data Base and 2002 - 2003 100 percent
                      National Claims History files. See Table 1 for more information on the
                      strata populations.

                       Table 1: Population and Response Rate for OIG Survey of Inhalation
                       Drug Suppliers, by Strata

                                                                                                               Number of      Percent of
                       Strata                      N (Population)                   n (Sample)
                                                                                                             Cases Received Cases Received


                       Stratum 1                          13,827                          120                     118            98

                       Stratum 2                         473,867                          120                     119            99

                       Stratum 3                          13,918                          120                     113            94

                       Stratum 4                         465,354                          120                     111            93

                       Overall Total                     966,966                          480                     461            96




                      Data Collection Instrument
                      Drawing on work by GAO, private researchers, CMS staff, and other
                      research, we developed a list of possible services that suppliers might
                      provide to beneficiaries and the ways they might interact with
                      beneficiaries in doing so. (See Table 2 on page 15.)

                      Next, we incorporated our lists of service types and interaction types
                      into a 1-page data collection form. We designed the form to be
                      photocopied and completed by suppliers for each service they provided
                      to beneficiaries in our sample during 2003. The form captured the date
                      suppliers provided the service, the type of service provided, how
                      suppliers interacted with the beneficiary to provide the service, and
                      whether documentation to support the service was attached. We vetted
                      the form within OIG and with staff at CMS.



    OEI-01-05-00090   REVIEW    OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                             14
A    P   P E N D      I X           ~     A 




                       Table 2: Service and Interaction Types


                       Service Types                                                            Interaction Types



                       Delivered Supply of Drugs                                                By U.S. Postal Service

                       Responded to Patient Inquiry About Drugs                                 By a Delivery Service (e.g., FedEx)

                       Responded to Patient Inquiry About Equipment                             By Company Delivery Person

                       Performed Equipment Maintenance                                          By Telephone

                       Performed Patient Education                                              By Company Staff Visiting in Patient's Home

                       Performed Clinical Intake                                                In Person at Retail Location

                       Reviewed Medication Compliance                                           No Interaction

                       Contacted Patient for a Refill                                           Other Interaction

                       Contacted Patient's Physician

                       Revised Plan of Care

                       Compounded Drugs

                       Other Service




                      Data Collection
                      To determine the services suppliers provided to beneficiaries in our
                      sample, we contacted the suppliers that provided them with inhalation
                      drugs in 2003. For beneficiaries in Strata 2 and 4, we contacted every
                      supplier the beneficiaries had during the year. For each beneficiary in
                      Strata 1 and 3, we only contacted the supplier that provided that
                      beneficiary with 8 or more months of inhalation drugs. Using this
                      approach, we identified 203 suppliers that were associated with the
                      beneficiaries in our sample.

                      To conduct our survey, we sent each supplier via express delivery a
                      packet with a cover letter, a supplier information form, a beneficiary
                      roster, instructions, and at least one copy of the data collection
                      instrument. Our instructions asked that suppliers report and document
                      all services they provided during 2003 to the beneficiaries on the roster.
                      We attempted to contact suppliers three times in writing over 8 weeks.
                      We also attempted to contact unresponsive suppliers by telephone. We
                      received responses from 186 suppliers. These suppliers provided data


    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                             15
A    P    P E N D               I X             ~       A


                                  on 461 out of the 480 beneficiaries in our sample, yielding a 96 percent
                                  response rate. (See Table 1 on page 14.) See Appendix C for a
                                  nonrespondent analysis.
                                  Data Analysis
                                  We reviewed each completed form and the corresponding supporting
                                  documentation suppliers submitted to attempt to verify the service the
                                  supplier provided and how the supplier interacted with the beneficiary.
                                  We captured data on 11,777 services, including 500 services that
                                  suppliers failed to report to us but were evident in the supporting
                                  documentation for other services. During data entry, we added
                                  13 additional service types and 2 additional interaction types to
                                  categorize information suppliers reported to us. About 1,800 services
                                  fell into these additional categories. See Table 3 below for detail on how
                                  we defined service delivery methods and Table 4 on page 17 for how we
                                  defined services.


      Table 3: Definitions of Service Delivery Methods


      Service Delivery Methods                                 Definition



      By U.S. Postal Service                                   U.S. mail


      By a Delivery Service                                    Third-party delivery service (e.g., FedEx, United Parcel Service)


      By Company Delivery Person                               Driver/delivery person employed by drug supplier


      By Telephone Contact                                     Supplier spoke with beneficiary or caregiver by telephone


      By Company Staff Visiting in Patient's Home              Supplier staff travel to and work inside beneficiary's home


      In Person at Retail Location                             Beneficiary or caregiver went to retail pharmacy


      No Interaction                                           Supplier did not interact with beneficiary or caregiver


      Left Message/Voicemail*                                  Supplier telephoned beneficiary and left a message


      Telephone/No Answer*                                     Supplier telephoned beneficiary and received no answer or voicemail


      Other                                                    Supplier reported a service delivery type that does not fit in these categories

      * Service delivery methods excluded from our analysis.




    OEI-01-05-00090               REVIEW   OF   SERVICES PROVIDED       BY   I N H A L AT I O N D R U G S U P P L I E R S                        16
A    P     P E N D                 I X             ~       A        





    Table 4: Definitions of Services


    Service                                        Definition



    Delivered Supply of Drugs*                     Supplier provided the beneficiary with nebulizer drugs

    Responded to Patient Inquiry About             Beneficiary or caregiver contacted the supplier with a drug-related question and the supplier
    Drugs                                          answered it
    Responded to Patient Inquiry About             Beneficiary or caregiver contacted the supplier with an equipment-related question and the
    Equipment*                                     supplier answered it
                                                   The supplier performed maintenance on or replaced the beneficiary's nebulizer, oxygen
    Performed Equipment Maintenance*
                                                   concentrator, or other respiratory equipment

    Performed Patient Education                    Supplier educated beneficiary or caregiver about drugs


    Clinical Intake                                Supplier captured beneficiary's demographic and/or clinical information

                                                   Supplier asked beneficiary or caregiver how often beneficiary is using drugs and/or about
    Reviewed Medication Compliance
                                                   effectiveness, side effects
                                                   Supplier corresponded with beneficiary or caregiver to determine if beneficiary needed a refill
    Contacted Patient for a Refill
                                                   shipment of drugs

    Contacted Physician's Office                   Supplier contacted physician's office for prescription, doctor's order, etc.


    Revised Plan of Care                           Changed beneficiary's medication or frequency of use


    Compounded Drugs*                              Pharmacist mixed two or more drugs together into single vial, or mixed drug from powder


    Billing Activity*                              Medicare billing activity (e.g., verified insurance, mailed assignment of benefits form)


    Patient Education about Equipment*             Supplier educated beneficiary or caregiver about nebulizer or oxygen equipment


    Delivered Equipment*                           Supplier delivered nebulizer, oxygen, or respiratory equipment to beneficiary


    Respiratory Assessment                         Supplier performed clinical assessment of beneficiary's respiratory functions


    Quality Control/Quality Assurance*             Supplier staff verified drug order, tested drug batch, etc.


    Notified Patient of Impending Delivery         Supplier contacted beneficiary or caregiver to confirm delivery date

                                                   Supplier changed beneficiary mailing address due to vacation, beneficiary moving; supplier
    Patient Tracking
                                                   terminated service

    Internal Order Processing*                     Supplier processed drug order (e.g., sent order from call center to pharmacy)


    Pharmacist Filled/Dispensed*                   Pharmacy-related work needed to fill order


    Stat Dose                                      Supplier arranged for initial drug supply to be picked up at local retail pharmacy

    Other Service                                  Service that does not fit into these categories
    * Services excluded from our analysis.




    OEI-01-05-00090                  REVIEW   OF   SERVICES PROVIDED      BY   I N H A L AT I O N D R U G S U P P L I E R S                          17
A    P   P E N D      I X           ~     A


                      We excluded services outside of our scope from our analysis. We also
                      excluded undocumented services, duplicate reporting of services, and
                      unsuccessful service attempts, such as attempted phone calls with no
                      answer. After all exclusions, the total number of services in our
                      analysis was 4,130. See Table 5 for a breakdown of the services we
                      excluded from our analysis.


                       Table 5: Services Excluded From Analysis, by Category


                                                                                                            Number of Services
                      Service Category
                                                                                                               Excluded


                      Equipment-related                                                                             441

                      Drug delivery                                                                               3,520

                      Billing activity                                                                               61

                      Pharmacy activity                                                                           1,516

                      Duplicate service                                                                             344

                      Undocumented service                                                                        1,505

                      Unsuccessful service attempt                                                                  181

                      Related to non-Medicare drug                                                                   68

                      Other reason                                                                                   11

                      Total services outside the scope of analysis                                                7,647
                      Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.




                      We based our analysis of average services per month on the count of
                      documented services each beneficiary received in each month. We
                      included a month in our analysis if the supplier reported any
                      documented drug-related service, including delivery, during that month.
                      This approach allowed us to include months with services even if there
                      was no Medicare claim billed in those months. For example, when a
                      beneficiary begins using inhalation drugs, his or her supplier could
                      provide services such as clinical intake and contacting the beneficiary’s
                      physician’s office before billing Medicare for drugs. Our approach
                      enabled us to include these services in our analysis.

                      Our analysis of the percentage of beneficiaries who got a particular
                      service is based on a count of those that received the service at least


    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                        18
A    P   P E N D      I X           ~     A


                      once during 2003 divided by the total number of beneficiaries for whom
                      we received a survey response.

                      The numbers of beneficiaries in our analysis changed depending on
                      whether we were analyzing our data at the beneficiary level or at the
                      service level and whether or not we were focusing on subgroups of
                      beneficiaries or services. We excluded beneficiaries whose suppliers
                      reported no documented services, including delivery, from all analysis
                      except that projecting the overall percentages of beneficiaries that
                      received services. We excluded beneficiaries whose suppliers only
                      reported documented drug deliveries from all analysis except our
                      calculations of average services per month and our projections of the
                      overall percentages of beneficiaries that received services.

                      We weighted the results of our analysis to account for our sample
                      design.
                      Confidence intervals and point estimates are provided in Table 10 in
                      Appendix B.




    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   19
A    P   P E N D            I X              ~     B       





                              DATA TABLES 


                      Table 6: Number of Medicare Beneficiaries Receiving Different Services
                      from Inhalation Drug Suppliers in 2003*
                                                                                                          Estimated             Percent of
                                                                  Frequency of
                      Service                                                                            Population of       Beneficiaries Who
                                                                  Beneficiaries
                                                                                                         Beneficiaries       Received Service

                      Contacted for a Refill                               303                                555,357              59.9

                      Contacted Physician's Office                         268                                486,361              52.5

                      Reviewed Drug Compliance                             140                                251928               27.2

                      Clinical Intake                                      170                                228,350              24.6

                      Performed Education                                  103                                152,321              16.4

                      Responded to Inquiry                                   48                                73,838               8.0

                      Revised Plan of Care                                   38                                45,991               5.0

                      Patient Tracking                                       21                                40,547               4.4

                      Delivery Followup                                      18                                32,463               3.5

                      Delivery Notification                                  26                                29,696               3.2

                      Other Service                                          13                                24,290               2.6

                      Stat Dose                                              13                                24,218               2.6

                      Respiratory Assessment                                 12                                24,174               2.6

                      Delivery Confirmation                                    8                                     4,757          0.5
                      Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.
                      * Beneficiaries may receive more than one service.




    OEI-01-05-00090           REVIEW    OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                           20
A    P   P E N D           I X            ~     B        





                 Table 7: Frequency and Percent of Services Provided to Medicare
                 Beneficiaries by Inhalation Drug Suppliers in 2003
                                                                                                  Estimated
                                                         Sample Frequency                                         Percent of All
                 Service                                                                         Population of
                                                            of Services                                             Services
                                                                                                   Services
                 Contacted for a Refill                            2,316                             3,675,554        55.9

                 Reviewed Drug Compliance                            570                                952,208       14.5

                 Contacted Physician's Office                        500                                801,099       12.2

                 Performed Education                                 289                                485,108        7.4

                 Clinical Intake                                     183                                245,114        3.7

                 Responded to Inquiry                                  76                               115,126        1.8

                 Delivery Followup, Patient
                 Tracking, Revised Plan of Care,
                 Respiratory Asessment, Delivery                     196                                299,578        4.6
                 Notification, Other Service, Stat
                 Dose, Delivery Confirmation

                 Overall Total                                     4,130                             6,573,787         100
                 Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.




    OEI-01-05-00090         REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                    21
A    P   P E N D          I X             ~     B        




                 Table 8: Number of Services Delivered by Inhalation Drug Suppliers in 2003
                 by Method of Service Delivery
                                                                                                 Estimated
                                                             Frequency of                                           Percent of All
                 Service Delivery Method                                                        Population of
                                                               Services                                               Services
                                                                                                  Services
                 By Telephone Contact with
                                                                   3,044                            4,809,297           73.2
                 Beneficiary
                 No Interaction                                     614                                943,125          14.4

                 By a Delivery Service                              197                                361,033           5.5

                 By U.S. Postal Service                             129                                154,883           2.4

                 By Company Staff Visiting in
                                                                      71                               144,862           2.2
                 Beneficiary Home

                 In Person at Retail Location, By
                 Company Delivery Person, Other
                                                                      75                               160,586           2.4
                 Service Delivery Type, Could Not
                 Verify Service Delivery Type

                 Overall Total                                     4,130                            6,573,786            100
                Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.




                 Table 9: Number of Medicare Beneficiaries Receiving Services from
                 Inhalation Drug Suppliers in 2003 by Method of Service Delivery*
                                                                                                                     Percent of
                                                                                                 Estimated
                                                             Frequency of                                         Beneficiaries Who
                 Service Delivery Method                                                        Population of
                                                             Beneficiaries                                        Received Service
                                                                                                Beneficiaries
                                                                                                                   Delivery Method

                 By Telephone Contact with
                                                                   313                                590,517           63.7
                 Beneficiary
                 No Interaction                                    280                                514,298           55.5

                 By a Delivery Service                              34                                 80,100            8.6

                 By U.S. Postal Service                             47                                 73,647            7.9

                 By Company Staff Visiting in
                                                                    44                                 69,405            7.5
                 Beneficiary Home
                 In Person at Retail Location, By
                 Company Delivery Person, Other                     14                                 28,239            3.1
                 Service Delivery Type
                Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.
                * Beneficiaries may receive multiple services through multiple methods.




    OEI-01-05-00090         REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                       22
A    P    P E N D                 I X               ~        B 



         Table 10: Confidence Intervals

                                                                                                                                        95 Percent Confidence
         Statistic                                                                                Point Estimate                  n
                                                                                                                                               Interval

         Percent of beneficiaries who received a refill contact                                         59.9%                     461       54%     66%

         Percent of beneficiaries with 2 months or more of drug claims who did
                                                                                                        30.8%                     377       24% - 37%
         not get a refill contact during the year

         Percent of beneficiaries whose doctors were contacted by their supplier                        52.4%                     461       46%     59%

         Percent of physician contacts that occur in the first month suppliers bill
                                                                                                        49.8%                     146       44% - 56%
         for drugs

         Drop in doctor contacts from month 1 to subsequent months                                        0.61                    212       0.51    0.72

         Percent of beneficiaries who received a compliance review                                      27.2%                     461       22%     33%

         Percent of compliance reviews done over the telephone during a refill call                     89.1%                     142       84%     95%

         Percent of beneficiaries who got education                                                     16.4%                     461       12%     21%

         Percent of beneficiaries who had an inquiry answered by their supplier                          8.0%                     461        5%     11%

         Percent of beneficiaries who had their care plan revised                                        5.0%                     461        2%     8%

         Percent of beneficiaries who got a respiratory assessment                                       2.6%                     461        1%     5%

         Percent of beneficiaries who got no services                                                   16.3%                     409       12%     21%

         Percent of all services that were refill contacts                                              55.9%                     377       52%     59%

         Percent of services that were medication compliance reviews                                    14.5%                     377       11%     18%

         Percent of services that were contacting physician offices                                     12.2%                     377       10%     14%

         Percent of services that were beneficiary/caregiver education                                   7.4%                     377        4% - 10%

         Percent of services that were clinical intake                                                   3.7%                     377        3%     5%

         Percent of services that were responding to beneficiary inquiries                               1.8%                     377        1%     3%

         Percent of services that were other services including respiratory
                                                                                                         4.6%                     377        3%     6%
         assessments and care plan revisions

         Percent of services provided by telephone                                                      73.2%                     377       69%     77%

         Percent of refill contacts done by telephone                                                   93.5%                     303       90%     97%

         Percent of compliance reviews done by telephone                                                96.0%                     142       92%     100%

         Percent of services with no beneficiary interaction                                            14.4%                     377       12%     17%

         Percent of beneficiaries who got a home visit                                                   8.8%                     461        5%     12%

         Percent of services provided by home visit                                                      2.4%                     377        1%     4%

         Percent of beneficiaries who got drugs and respiratory equipment from
                                                                                                        74.1%                     461       69% - 80%
         their inhalation drug supplier

         Number of services in first month                                                                1.96                    215       1.75    2.18

         Low number of services received in months 2 - 8                                                  1.01                    203       0.87    1.16

         High number of services received in months 2 - 8                                                 1.17                    192       1.01    1.35

         Average number of services beneficiaries received in 2003                                        1.20                    444       1.08    1.32

         Excluding refill contacts, average number of services beneficiaries
                                                                                                          0.71                    444       0.60    0.82
         received in 2003
         Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005


    OEI-01-05-00090                 REVIEW     OF   SERVICES PROVIDED         BY   I N H A L AT I O N D R U G S U P P L I E R S                                 23
A    P   P E N D      I X             ~      C        





                        NONRESPONDENT ANALYSIS
                        A consideration in surveys or data collection efforts of this type is
                        whether the results may be biased by significant differences between
                        respondents and nonrespondents. To determine whether significant
                        differences exist in this data collection effort, we compared respondents
                        and nonrespondents by whether or not beneficiaries got respiratory
                        equipment from their inhalation drug suppliers and by the average
                        months of inhalation drug claims beneficiaries had in Medicare’s
                        National Claims History file.
                        We achieved a 96 percent response rate with respect to the beneficiaries
                        sampled. As a result, we had 461 responses and 19 nonresponses to use
                        for this analysis.

                        Our analysis suggests that our survey results were not biased with
                        regard to these variables.
                        Analysis by Whether the Beneficiary Also Received Equipment
                        A chi-square test showed no relationship between respondents and
                        nonrespondents with respect to beneficiaries receiving respiratory
                        equipment from their inhalation drug suppliers. (See Table 11.)



                      Table 11: Analysis by Whether the Beneficiary Also Received Equipment

                                                           Received                     Received              Did Not Receive Did Not Receive
                                                          Equipment                    Equipment                Equipment       Equipment
                                                           (Number)                    (Percent*)                (Number)        (Percent*)

                      Sample (n=480)                           369                           73.1                  111             26.9

                      Respondents (n=461)                      359                           73.3                  102             26.7

                      Nonrespondents (n=19)                      10                          69.1                    9             30.9
                      Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.
                      * Percents were weighted based on the sample design.
                      Chi-square=0.08 (not significant)




    OEI-01-05-00090     REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S                               24
A    P   P E N D      I X           ~      C


                      Analysis by Average Months of Claims
                      We performed a t-test to compare the average months of inhalation drug
                      claims between respondents and nonrespondents. The difference was
                      not statistically significant. (See Table 12.)


                       Table 12: Analysis by Average Months of Claims


                      Sample (n=480)                                     Average Months of Claims*



                      Respondents (n=461)                                                     4.97

                      Nonrespondents (n=19)                                                   6.10
                      Source: Office of Inspector General Survey of Inhalation Drug Suppliers, 2005.
                      * Average claims were weighted based on the sample design.
                      t=1.09 (not significant)




    OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   25
Δ   A G E N C Y                   C O M M E N T S                                            





OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   26 

Δ   A C K N O W L E D G M E N T S                                                               




                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Kenneth R. Price, Team Leader
                  Ivan E. Troy, Program Analyst

                  Benjamin T. Mahdi, Intern

                  Linda B. Abbott, Program Specialist



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician

                  David Graf, Program Analyst

                  Rob Gibbons, Program Analyst




OEI-01-05-00090   REVIEW   OF   SERVICES PROVIDED   BY   I N H A L AT I O N D R U G S U P P L I E R S   27
